NONPRECEDENTTAL DISPOSITION
To be dted only in accordance with Fed. R. App. P. 32.1

Jlmfeh States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted November 10,2020*
Decided November 19,2020
Before
DIANE S. SYKES, ChiefJudge
JOEL M. FLAUM, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge
No. 20-1635
MICHAEL T. HUGHES,
Plaintiff-Appellant,

v.
KIM ANDERSON, et al.,
Defendants-Appellees.

Appeal from the United States District
Court for the Northern District of Illinois,
Eastern Division.
No. 18 C 6139
Virginia M. Kendall,

Judge.
ORDER

Michael Hughes, a pretrial detainee at the Cook County Jail, sued jail officials for
deliberate indifference and proceeded in forma pauperis. See 28 U.S.C. § 1915(a).
Defendants in another of Hughes's suits (he had at least eight pending) moved to
dismiss, arguing that he was depositing his money into other inmates' accounts to
avoid paying the filing fees. They relied on recordings of phone calls with his brother
where Hughes stated that "Bus is the way to get around [the fees]." The district court
agreed and dismissed Hughes's suits with prejudice, finding a fraud on the court.
'i

* We have agreed to decide this case without oral argument because the briefs
and record adequately present the facts and legal arguments, and oral argument would
not significantly aid the court. Fed. R. App. P. 34(a)(2)(C).

Page 2

No. 20-1635

Because the judge properly considered the recorded jail calls as evidence and
permissibly ruled that Hughes's conduct was intentional and egregious, we affirm.
Hughes sued jail officials in 2018 for ignoring his repeated complaints of rectal
bleeding and pain, a condition that ultimately led to the removal of his colon. After the
judge denied his first application to proceed without prepaying the filing fee (in it
Hughes omitted $1,600 in gifts that he recently received), she granted his second
application. The judge warned him, though, that she would "not tolerate false or
misleading statements" in the future and that such conduct may result in sanctions,
including dismissal of his suit. The judge reminded Hughes that because she had also
granted him leave to proceed without prepaying fees in five other pending cases, 100%
of the balance of his inmate trust fund account exceeding $10 (20% for each case) would
be deducted until his filing fees were fully paid. See id. § 1915(b)(2); see also Bruce v.
Samuels, 577 U.S. 82,85 (2016). Hughes later asked the court for an accounting of his
unpaid filing fees, revealing that he owed almost $4,000.
In a separate suit where Hughes alleged other civil-rights violations by jail
officials, the defendants moved to dismiss, arguing that he had defrauded the court in
two ways. First, Hughes had omitted from his IFP application $500 in gifts that he had
recently received. Second, he had instructed his brother, who typically deposited
money into Hughes's account, to deposit $134 (in two transactions) to other inmates'
accounts for his personal use in order to avoid paying the outstanding filing fees. In
support the defendants attached documents reflecting his brother's deposit activity,
including those into Hughes's cellmates' accounts, and recordings of two phone calls
with his brother. The calls appear to confirm his scheme to avoid filing fees:
• He had $9,000 in fees from "put[ting] the lawsuits in" and was "waiting
for the settlement to pay [those] off."
• "But for right now, this is the way to get around it."
• But "I don't talk about that, because [jail officials] record these
conversations .... They take these conversations and give it to the
judge."
The judge ordered Hughes to explain why, in light of Bus evidence suggesting
that he was diverting funds to avoid his debts, the court should not dismiss all his cases
with prejudice. Hughes argued that although he directed funds to other inmates'
accounts, he did so to remain eligible for a jail program that provided him with free
hygiene products, not to defraud the court. He explained that the jail based his

No. 20-1635

Page 3

eligibility for that program on his incoming deposits, not on the balance of his account
after deductions for his debts.
The judge dismissed Hughes's eight pending suits with prejudice, finding that he
had defrauded the court in its effort to collect the filing fees. The judge reasoned that
Hughes "undoubtedly" wanted to "thwart" collection of die filing fees because "he said
so" to his brother on the call. And, the judge noted, the regular and frequent deposits to
his account had suspiciously ceased. In the almost four years since Hughes entered the
jail, up until the month before he asked the court about his unpaid filing fees, he had
received 74 deposits totaling over $3,700, most of which came from the same sources,
including his brother. Shortly after he received an accounting of the debts he owed to
the court, however, Hughes had only one deposit to his account in the amount of $10.
So there was reason to be concerned that Hughes was structuring transactions to avoid
paying the filing fees. Given the gravity of Hughes's misconduct, dismissal with
prejudice was appropriate. He had defrauded two public institutions (the court and jail).
The judge stated that dismissal without prejudice and permitting him to refile would
amount to no real sanction. She wanted to send a "firm message" about the need to
remain truthful throughout the litigation process.
On appeal Hughes insists that he did not mean to defraud the court. He meant
only to remain eligible for the jail's hygiene-product program, and he never lied to the
court in his IFP affidavit or failed to disclose any of his finances.
The judge did not clearly err in rejecting this defense and finding that Hughes
intentionally concealed assets to defraud the court. See Thomas v. Gen. Motors Acceptance
Corp., 288 F.3d 305,308 (7th Cir. 2002) (describing the standard of review). First, it is
irrelevant that Hughes may not have lied on his IFP affidavit. Courts can, in an
oversight role, monitor a prisoner's finances "to ensure that the prisoner does not
deplete his trust account in order to avoid paying the filing fee." Robertson v. French,
949 F.3d 347,353-54 (7th Cir. 2020); see also Sultan v. Fenoglio, 775 F.3d 888,891 (7th Cir.
2015). Second, the judge permissibly found that Hughes was brazenly depleting his
assets to avoid paying his debts to the court. Hughes stated on a call (a recording he
knew a judge may receive) that he wanted his brother to deposit his money into other
inmates' accounts. And far from saying, as he now claims, that this scheme would help
him remain eligible for a jail program, he admitted that diverting his assets was the way
to "get around" the "fees" he owed from "put[ting] the lawsuits in." Finally, even if he
diverted assets only to defraud the jail and not the cotut, Hughes should have told that
to the court before hiding the assets so it could evaluate the legitimacy of the scheme.

No. 20-1635

Page 4

See Kennedy v. Huibregtse, .831 F.3d 441,443 (7th Cir. 2016) ("[H]iding assets is not a
permissible alternative to seeking the judge's assistance. An [IFP] applicant has to teh
the truth, then argue to the judge why seemingly adverse facts ... are not dispositive. ).
Next, Hughes argues that even if some sanction was appropriate, the judge
should not have punished him with dismissal with prejudice. He contends that he
diverted only $134 and that he offered (in a motion for relief from the judgment) to raise
money to pay some of the filing fees. It is "beyond question" that a court may dismiss a
case with prejudice as a sanction in an appropriate case. Thomas, 288 F.3d at 306. Before
doing so, however, a judge should "generally consider" lesser sanctions first. Hoskins v.
Dart, 633 F.3d 541, 544 (7th Cir. 2011). Here, the judge did just that, noting that dismissal
with prejudice was "proportionate to the gravity" of Hughes's deliberate concealment
of assets. First, she had warned Hughes not to hide assets, to no avail. Second, even
though Hughes was caught on tape discussing hiding less than $200, the judge
reasonably found that Hughes was scheming for more diversions because he had asked
about his outstanding debts and altered his longtime deposit patterns to avoid pajdng
them. Third, the judge also considered dismissal without prejudice but noted that it
would be too lenient considering the "numerous deeply troubling aspects of [Hughes s]
conduct." Accepting an asset-concealer's belated offer to pay his debts would not deter
others from trying to get away with a similar fraud.
Finally, Hughes raises two procedural matters. First, he argues that the judge
should not have considered the phone calls without permitting him to contest the
recordings' authenticity. He dtes Diamond v. Pitchess, 411 F.2d 565,566-67 (9th Cir.
1969), where a district court sua sponte dismissed a suit as frivolous, relying on its in­
camera review of government reports. Unlike Diamond, the court here dismissed
Hughes's suit not as frivolous but as a sanction for fraud and only after giving him
notice of the possible sanction and a chance to respond. That process was sufficient. See
Donelson v. Hardy, 931 F.3d 565,569 (7th Cir. 2019). Next, Hughes claims that the
recordings were not exchanged with him. However, he does not challenge the
defendants' reliance on the certificate of service showing that copies of the recordings
were mailed to the jail well before his brief was due. He otherwise fails to develop his
argument, so it is waived. See Shipley v. Chi. Bd. of Election Comm'rs, 947 F.3d 1056,1063
(7th Cir. 2020).
We considered Hughes's other arguments, and none has merit.
AFFIRMED

% fc

r--

uase: i:iy-cv-ub4by Document w: y t-nea: uj/xz/zu rage x ui m rayeiu h-.oo

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
Michael T. Hughes (2015-1106050),

)
)
)
)
)
)
)
)
)
)

Plaintiff,
v.
Cook County, et al.,
Defendants.

Case No. 18 C 5582
Hon. Virginia M. Kendall

V
Michael T. Hughes (2015-1106050),
Plaintiff,
v.
Mark Wolfe,
Defendant.

Michael T. Hughes (2015-1106050),
Plaintiff,
v.
Khan, et al
Defendants.

)
)
)
)
)
)
)
)
)
)

Case No. 18 C 5895
Hon. Virginia M. Kendall

)
)
)
)
)
)
)
)
)

Case No. 18 C 6138
Hon. Virginia M. Kendall

Michael T. Hughes (2015-1106050),
Plaintiff,
V.
Cook County, et al.,
Defendants.

)
)
)
)
)
)
)
)
)

Case No. 18 C 6139
Hon. Virginia M. Kendall

'

t

m

V^UOV/.

L/UOUIHV;ifL TT•

Michael T. Hughes (2015-1106050),
Plaintiff,
v.

Mrs. Davis, et al.,
Defendants.

<J

li^U.

)
)
)
)
)
)
)
)
)

V/W/U_f/£.VJ

I

4- \j I

J-“T I

U^V^IL,/ TT.v/C/

Case No. 19 C 1791
Hon. Virginia M. Kendall

Michael T. Hughes (2015-1106050),
Plaintiff,
v.

Deputy J. Reichard, et al.,
Defendants.

)
)
)
)
)
)
)
)

Case No. 19 C 2457
Hon. Virginia M. Kendall

Michael T. Hughes (2015-1106050),
Plaintiff,
v.

Director Gavin, et al.,
Defendants.

)
)
)
)
)
)
)
)

Case No. 19 C 3282
Hon. Virginia M. Kendall

Michael T. Hughes (2015-1106050),
Plaintiff,'
v.

Salamane, et al.,
Defendants.

)
)
)
)
)
)
)
)

Case No. 19 C 6469
Hon. Virginia M. Kendall

MEMORANDUM. OPINION & ORDER
The motions to dismiss [22] in Case 19-cv-1791, [20] in Case 19-cv-2457, and [27] in Case
19-cv-3282 are granted. Each of the eight above-captioned cases are dismissed with prejudice due

2

I

t I fc

/1 •

IIWM>

V Wf

I

W

I

V

I

. r i

uvjviu/ it . wv

to Plaintiff s perpetration of fraud upon the Court. The Clerk is directed to enter final judgment
in each case and close each case. All other pending motions in all above-captioned cases are
terminated as moot.

All eight cases are referred to the Executive Committee with a

recommendation that Plaintiff be barred from filing new lawsuits in this Court until he has paid
his outstanding filing fees in full.
STATEMENT
Over the past nearly two years, Plaintiff Michael Hughes, an inmate at the Cook County
Jail, initiated 15 federal lawsuits in this district (all pending before this Court) concerning his
experience at the jail. At the present time, eight of his cases remain pending: Hughes v. Mrzeana,
18-cv-5582;Hughes v. Wolfe, 18-cv-5895; Hughes v. Khan, 18-cv-6138; Hughes v. Cook County,
18-cv-6139; Hughes v. CRW Davis, 19-cv-1791; Hughes v. Reichard, 19-cv-2457; Hughes v.
Gavin, 19-CV-3282; andHughes v. Salamane, 19-CV-6469. The Court granted him leave to proceed
in forma pauperis (“IFP”) in all eight of those actions due to his statements of indigency to the
Court. The Court also granted him leave to proceed IFP in an additional four actions, which are
no longer pending: Hughes v. CCDOC, 18-cv-6583; Hughes v. Cook County Doc, 18-cv-6587;
Hughes v. Dart, 19-cv-2487; and Hughes v. Wolfe, 19-cv-3174. In short, Plaintiff has been
bestowed the privilege of proceeding IFP in this Court 12 times over the last two years.
Plaintiff has accrued approximately $5,000 in filing fees for the litigation he initiated, but
he has paid only $153.59 to date. He presently owes: $319.84 in Hughes v. Mrzeana, 18-cv-5582;
$319.84 in Hughes v. Wolfe, 18-cv-5895; $319.84 in Hughes v. Khan, 18-cv-6138; $328.23 in
Hughes v. Cook County, 18-cv-6139; $319.84 in Hughes v. CCDOC, 18-cv-6583; $339.75 in
Hughes v. Cook County Doc, 18-cv-6587; $349.07 in Hughes v. CRW Davis, 19-cv-1791; $0. in
Hughes v. Cook County, 19-cv-1793 (filing fee waived); $350 in Hughes v. Reichard, 19-cv-2457;

3

uuuumeni n: y Hied: 03/17/20 Page 4 of 14 PagelD #:61

$350 in Hughes v. Dart, 19-cv-2487; $350 in Hughes v. Wolfe, 19-cv-3174; $350 in Hughes v.
Gavin, 19-cv-3282; $400 in Hughes v. Dart, 19-cv-4047; $400 in Hughes v. Dart, 19-cv-5145; and
$400 in Hughes v. Salamane, 19-cv-6469.
Before the Court began collecting its fees directly from his trust fund account, Plaintiff
received regular deposits to the account from several sources, including friends and family who
made deposits on a consistent repeat basis. See Case 19-cv-1791, Dkt. 28-1 (Plaintiff s trust fund
account statement, printout dated 12/17/19).

Since Plaintiff entered Cook County Jail in

November 2015 through March 2019, Plaintiff received 74 separate deposits to his trust fund
account that totaled $3,727.05, for an average monthly deposit of approximately $93.00 a month.
Id. As indicated, several of the people who deposited funds did so on a regular and repeat basis;
for example, an “Antonio Hughes” made 23 deposits to Plaintiffs account, and a “Yesmi Hughes”
made 26 deposits. Id. Plaintiff regularly used the funds to make commissary purchases. Id.
The regular deposits from all sources (and commissary spending) ceased, however, after

status, the Court questioned how it was possible that Plaintiff had filed so many cases without

A? -^
A?
V
"T,U0

paying any money towards the filing fees. Each time the County sought to extract filing fees from
his account, his account was depleted. Plaintiff received only one deposit, for $10, to his jail ^ &*4
account from April 2019 through December 2019. See id. Since March of 2019, Plaintiff has

V

maintained a balance in his trust fund account of less than $10.00 and has purportedly only made
KJJ

two purchases at the commissary (totaling $0.75). See- id. Right around the same time, on April
22, 2019, this Court entered orders in several of Plaintiff s cases warning the trust fund officer at
Cook County Jail that it must collect 100% of Plaintiffs deposits each month, if his balance
exceeded $10, for payment to the Court for its fees, or face sanctions. See Case 19-cv-1791 , Dkt.

4

cSfl*'

. v

ji

muu.

\jKjr

jl

i /£-\j i

sj ui x^t- r ay^iL^ tt-.\j£.

5; Case No. 19-cv-2457, Dkt. 5; Case No 19-CV-2487, Dkt. 5. (The Court also issued similar orders
in two more of Plaintiff s cases in May. See Case No. 19-cv-3174, Dkt. 6; Case No. 19-cv-3282,
Dkt. 7.) On May 15, 2019, Plaintiff sent a letter to the clerk requesting an accounting of his fees
so he could reduce the amount of my debt”. See Case 19-cv-1791, Dkt. 9. In response, on June
3, 2019, this Court issued a minute entry (which was docketed in each of his cases) informing
Plaintiff of the thousands of dollars he still owed in filing fees and explaining that the debt was
irrevocable, even if any case was dismissed, voluntarily or involuntarily. See, e.g., Case 19-cv1791, Dkt. 12; Newlin v. Helman, 123 F.3d 429,432 (7th Cir. 1997); Sloan v. Lesza, 181 F.3d 857,
859 (7th Cir. 1999).
This timeline of events shows that the simultaneous cessation of funds from all sources to
Plaintiff s trust fund account coincided directly with this Court’s increased efforts to collect its
fees. This Court had thus been concerned for some time that Plaintiff had structured his finances
to purposefully thwart application of the Prison Litigation Reform Act’s (“PLRA”) mechanism for
collecting fees through a prisoner’s trust fund account, 28 U.S.C. § 1915(b). The Court has not
been able to collect any of Plaintiff s outstanding filing fees on any of his cases, open or closed,
since July 2019 because there have been insufficient funds in his trust fund account.
Then on December 23, 2019, Defendants submitted a reply brief in support of their motion
to dismiss Case 19-cv-1791 that contained evidence that confirmed the Court’s concerns. See Case
19-cv-1791, Dkt. 28 at 7-11. Defendants in that action submitted an audio recording of two
telephone calls from December 2019 between Plaintiff and his brother, Antonio Hughes, in which
Plaintiff directs Antonio to deposit funds for Plaintiffs personal use into the trust fund accounts
of two of his tier mates, who will in turn allow Plaintiff to then access the funds. Id. at 9. Plaintiff
expressly tells his brother that this needs to be done so that Plaintiff can avoid collection of his

5

ov-u«j‘tua uuuumtiiii w. y hiiea:

U3/1//20 Page 6 of 14 PagelD #:63

filing fees. Id. At one point in the conversation, Antonio inquires how much Plaintiffs “

fees”

are, to which Plaintiff replies, “$9,000”, and then explains that he “is waiting for the settlement to
get off that but for now this is a way to get around it”. Id. Plaintiff explains to his brother that he
incurred the fees “because [Plaintiff] put the lawsuits in” but then says that “he can’t talk about
that” because the phone call is recorded. Id. Defendants also submitted the trust fund statements
of Plaintiffs tier mates, which in fact show the deposits from Antonio Hughes. Case 19-cv-1791,
Dkt. 28 at Exs. D, F. This evidence unequivocally demonstrates that Plaintiff is purposefully
attempting to thwart the PLRA’s mechanism for collection of his filing fees through his trust fund
account.
In an abundance of caution, the Court allowed Plaintiff to file a sur-reply to address this
evidence and give an explanation why, not only this case, but all of his cases where he has been
granted IFP status, should not be dismissed with prejudice for perpetrating a fraud upon the Court.
Case 19-cv-1791, Dkt. 31. The Court warned Plaintiff that it was considering this sanction given
that Plaintiffs seeming efforts to divert his funds impeded the Court’s ability to collect his filing
fees for all of those cases. Id. The Court also warned Plaintiff that it has ample authority to
sanction intentionally fraudulent conduct designed to obtain a benefit from the

court, such as the

privilege ofproceeding IFP. Id., citing Greyer v. IDOC, 933 F.3d 871, 880 (7th Cir. 2019)

; Wilson

v. Wexford Med. Servs., 751 Fed App’x 956,957 (7th Cir. 2019); Kennedy v. Huibregtse, 831 F.3d
441,444 (7th Cir. 2016); Coleman v. Calumet City, 754 Fed. App’x 468,468-69 (7th Cir.

Feb. 27,

2019). Plaintiff was then advised again by a separate minute entry, docketed in all of Plaintiff s
pending cases, that his sur-reply would apply to all pending cases. See, e.g, Case 19-cv-1791.
Defendants were also ordered to file a consolidated response to the sur-reply. Id.

6

uaoc. i.iJ'uvuuHUD l/uuuiiiciiL ft. 5 rncu. uo/i//^u rayc / ui -l*+ rayciitt-.vH

Plaintiff complied and filed a consolidated sur-reply wherein he not only admitted the
conduct, he essentially claimed he was entitled to engage in it. Gase 19-cv-1791, Dkt. 38 (also
docketed in all above-captioned cases). In the brief, he admits that he directed his brother to
deposit funds into two other inmates’ accounts for his personal use: “To that fact, that I placed
funds on anothers [ajccount the State is correct in its accusation and responsibility for that I will
not attempt to allude the Honorable’s intuition.” Plaintiff also admits that he uses the money for
personal purchases, specifically “to buy clothes and stock up on hygiene.” He engaged in this
conduct not to avoid paying court fees, he claims; but instead: (1) to avoid paying “unpaid debts”
that he owes to Cook County’s Law Library in conjunction with “conducting discovery”; and (2)
to remain eligible for Cook County’s “indigent services”.

Plaintiff purports that if his family

members deposited their funds into his own account, “CCDOC will deduct their fees within
seconds of [it’s] deposit.” He laments that the “majority” of the deposits would meet this fate.
Although he does not expound on the nature of his debt to the Law Library, the Cook County
Defendants extrapolate that Plaintiff is referring to Cook County’s policy of charging for
photocopies that exceed 60 pages. The Defendants explain in their consolidated response that if a
detainee does not have proper funds to pay for the total photocopying beyond 60 pages, the
detainee signs an authorization for the release of his funds to the law library for the amount owed.
Plaintiff has signed multiple releases of his funds for photocopying documents over 60 pages, and
in earlier months he has had photocopying fees deducted from his trust fund account. Plaintiff
also explains that if his family members were to deposit money into his own account, he would
then no longer qualify for “indigent services”. The Cook County Defendants explain that Plaintiff
is referring to what is known as Cook County’s “Indigence Program”, which provides detainees
with certain free writing supplies and personal hygiene products if their income does not exceed

7

x.j.»-cv-ub4by Document #: 9 Filed: 03/17/20 Page 8 of 14 PagelD #:65

$25.00 in the 30 days before the services or products are provided. Plaintiff explains that if he did
not qualify for the Indigence Program, then he would have to pay for certain hygiene products and
writing supplies, instead of receiving them for free. Plaintiff perceives his

conundrum as boiling

down to, “the financial stresses that CCDOC high fees adds, which are almost always incurred if
you are conducting discovery, puts a destitute detainee in dire need of the indigent services to
essentially take a shower or two and communicate to the Courts”.

Plaintiff has decided that the

County’s “pricing scheme” leaves him with two choices: “[1] paydown my debt and not be able
to communicate to the Court or [2] not have funds placed on my account just to be able to
communicate with the Court and have bare minimal hygiene by virtue of indigent services
provided by CCDOC”.
The Court is baffled that Plaintiff appears to believe that his financial machinations
described in his sur-reply absolve him. Much to the contraiy, he admitted that he habitually diverts
funds from his trust fund account in order to create a false appearance of poverty so he may avoid
paying his debts and instead obtain various benefits - to which he is not in fact entitled - from the
government. Whether Plaintiff s primaiy purpose in doing so is to avoid his filing-fee obligations,
avoid paymg excess photocopying fees, or avoid exceeding the Indigence Program’s income
threshold is immaterial. Plaintiff undoubtedly knew that his maneuverings would ultimately
thwart the PLRA’s collection mechanism, and he was motivated by such, because he said so t
brother during the recorded call. Plaintiff told his brother to send money to his tier

mates in order

to “get around” his obligation to pay filing fees. And timing is an important factor here too.
fact that the regular and frequent deposits to his

ohis

The

own account ceased just on the heels of his

communications with this Court where he asked how to “reduce my debt” is also evidence that his
filing-fee obligations motivated his decision to divert funds.

8

Plaintiff s protests that he cannot

case: i:iy-cv-0b469 Document #: 9 Filed: 03/17/20 Page 9 of 14 PagelD #:66

afford to pay for both personal items such as hygiene products and his litigation costs at once does
not change the fact that he admitted to intentionally attempting to avoid the operation of the PLRA
by asking his brother to deposits funds to his tier mates, knowing that otherwise, the funds would
be subject to fee deductions in connection with his 15 cases. There can be no availing excuse for
this conduct, let alone an excuse that essentially boils down to: I was actually defrauding the
County, not the Court. See generally Ayoubi v. Dart, 640 F. App’x 524, 528 (7th Cir. 2016) (“The
Court need not accept an explanation from an inmate that is crafted only to exonerate litigation
misconduct.”).
It is beyond reproach that Plaintiff s conduct is worthy of some sanction. “Proceeding in
forma pauperis is a privilege, not a right,” Lofton v. SP Plus Corp., 578 F. App’x 603,604 (7th Cir.
2014). The Court therefore determines what sanction is appropriate in these circumstances.

The

Court may,use its inherent authority to issue a sanction that is “proportionate to the gravity of the
offense,” id., and penalize[s] and discourage[s] misconduct.” Ramirez v. T&HLemont, Inc., 845
F.3d 772, 776 (7th Cir. 2016) (citing Chambers v. NASCO, Inc., 501 U.S. 32, 46 -50 (1991)). A
hearing is not required since the Court gave Plaintiff “notice of the possible sanction and

an

opportunity to respond to its order to show cause,” which is “sufficient process.” Donelson v.
Hardy, 931 F.3d 565, 569 (7th Cir. 2019) (collecting cases).
As the Court finds that Plaintiff has admitted to intentionally trying to thwart the PLRA’s
mechanism for collecting the approximately $5,000 in fees that he owes this Court by diverting
his funds, the Court concludes that dismissal of each action where he was bestowed the privilege
of proceeding IFP is appropriate. Plaintiffs misconduct has, after all, impeded the Court’s ability
to collect any of the fees owed for each and every one of those cases since the time he began
diverting funds, leaving nearly $5,000 in fees unpaid. This is particularly troubling given that

9

t

.

uuoumeiii h-. 3 rueu. uo/i//^u Kage 1U OT14 rageiu #:t>f

Plaintiff has filed so many cases in a relatively short period of time, which means both that the
amount of uncollectable debt is high and that countless hours of judicial resources have been
expended on his cases. Courts, when faced with similar abusive conduct by litigants, have found
dismissal to be the appropriate sanction. See Campbell v. Nyklewick, No. 05-C-481-C, 2006 WL
6087657 (W.D. Wis. May 9,2006) (dismissing case brought by inmate whose girlfriend deposited
money into another inmate’s account for his use, thereby “creating] an illusion of destitution” to
avoid paying his accumulated filing fees); Cuoco v. U.S. Bureau of Prisons, 328 F. Supp. 2d 463,
468 (S.D.N.Y. Aug. 2, 2004) (dismissing case brought by inmate who “created an illusion of
poverty through a series of deceptive acts,” including diverting settlement funds to her mother and
representing that it was “unfeasible” to have money deposited to her prison account”). Although
the Seventh Circuit has not addressed this precise situation, it has repeatedly noted that intentional
depletion of a trust fund account by a prisoner subject to the PLRA can be problematic in several
contexts. See Allen v. LaSalle Cty. Jail, 606 Fed. App’x 854, 855 (7th Cir. 2015) (explaining that
financial information post-dating the submission of an IFP motion is properly before the Court
when it suggests that an inmate is attempting to avoid assessment of a greater filing fee under the
PLRA); Sultan v. Fenoglio, 775 F.3d 888, 891 (7th Cir. 2015) (“Our view [regarding a prisoner’s
qualification to proceed IFP] would be different if there were evidence that [a prisoner] was
intentionally depleting his trust account to avoid paying his filing fee”); see also generally Moran
v. Sondalle, 218 F.3d 647, 651 (7th Cir. 2000) “[Prisoners who play games to avoid the PLRA
should not expect courts to cooperate.”).
The Court lastly considers whether to dismiss with or without prejudice. See Thomas v.
Gen. Motors Acceptance Corp., 288 F.3d 305, 306-07 (7th Cir. 2002). When conduct is properly
characterized as intentional or fraudulent and is sufficiently egregious, a sanction of dismissal with

10

'-'WsJV.,

. laa-uv-uowy uocument#: 9 Filed: 03/17/20 Page 11 of 14 PagelD #:68

prejudice is appropriate. See Aguilar v.

Goldberg, 770 App’x 293, 295 (7th Cir. May 20,

Ruiz v. Bautista, No. 19-1425, 2020 WL 974896,
933 F.3d at 880 (explaining that while district

2019);

at *3 (7th Cir. Feb. 28, 2020); see also Greyer,

courts “should proceed carefully before imposing

severe sanctions on prison litigants,” they “remain empowered
conduct”); Wilson, 751 Fed App’x at 957 (citing Hoskins y.

to sanction extreme bad-faith

Dart, 633 F.3d 541 (7th Cir. 2011)

(sanctions based on “ an attempt to intentionally mislead the court in pursuit of some illicit benefit”
finds “ample support in our case

law ). A court may dismiss a case with prejudice based
on
intentional misrepresentations even if the plaintiff is actually impoverished
. Chriswell v. Big Score
Entm % LLC, No. 11 C 00861, 2013 WL 3669074,
at *4, n.6 (N.D. Ill. July 12, 2013).
Here, the sanction of dismissal with prejudice i
is warranted as it is proportionate to the
gravity of Plaintiffs misdeeds. Although this Court recognizes that the
sanction is severe, the
alternative—dismissing without prejudice to Plaintiffs
ability to refile and start over again in each
case-is too lenient and in fact would no. exact any real sanction at all despite
numerous deeply
troubling aspects of Plaintiff s conduct and his submissions.

See generally Mullins v. Hallmark

DataSys., LLC, 511 F. Supp. 2d 928.940 (N.D. Ill. 2007) (noting that a dismissal without prejudice
to refiling would allow a pro se plaintiffs “
gamble with the false IFP affidavit” to pay off by
‘leaving her in no worse position than if she had told th
e truth ... This sort of heads I win, tails
you lose approach is unacceptable in all contexts”).
^ First, the actions that Plaintiff took to
knowing, but were also purposefully unlawful

create a false appearance of poverty were not just

• Plaintiff, per his own words captured on the audio

recording, diverted his funds/or the purpose of avoiding PLRA deductions.
This supports
dismissal with prejudice iin and of itself. See, e.g, Kennedy, 831 F.3d at 444 (finding dismissal
with prejudice was proper sanction for knowingly attempting to conceal assets when

11

applying for

*»

uase: l:l9-cv-06469 Document#: 9 Filed: 03/17/20 Page 12 of 14 PagelD #:69

informa pauperis status); Coleman, 754 Fed. App’x at 468-69 (affirming dismissal with prejudice
based on inaccurate IFP financial disclosures after rejecting plaintiffs
claim that
misrepresentations were due to an oversight); Donelson, 768 Fed. App’x at 574 (a district
court
has the authority to dismiss with prejudice when a litigant “lies .
But what is more, the excuse that Plaintiff provided to this Court

. . about his financial status”).
- his deceptive practices were

aimed at the County only, not this Court - iis, as
already explained, demonstrably untrue.
Plaintiffs who attempt to deceive federal judges

.. cannot expect favorable treatment on matters

of discretion.” Campbell v. Clarke, 481 F.3d 967, 970 (7th Cir. 2007). This rule i
is especially
applicable to litigants who dig in their heels by attempting to “cover[] up one lie with another.”
gutter, 770 App’x at 295 (affirming dismissal with prejudice where plaintiff lied i
in response to
show-cause o rder regarding whether he was indigent); see Secrease v. W& So. Life. Ins. Co., 800
F.3d 397, 400-01 (7th Cir. 2015) (affirming dismissal with prejudice when litigant “

dug a deeper

hole of deception”).
Second, and even more troubling, is the fact that Plaintiffdoes not appear to appreciate that
he has done anything wrong. In fact, he believes he is entitled to the actions that he took

. He has

offered as an excuse what is in actuality an admission of habitually diverting funds in order to
defraud not just one (the Court), but rather two (Cook County as well) public institutions. There
is no constitutional right to spend personal cash at the commissary. That is a privilege; and yes,
pretrial, detainees must make choices about filing lawsuits, including that the cost of the filing fee
will be deducted in small increments over time thereby reducing the amount of cash that he

can

spend personally. The PLRA allows the pretrial detainee to file in former pauperis upon a finding
of indigency by the Court. That means that the detainee has decided that a portion of his account
will go to the filing of the lawsuit each month.

12

Recognizing this, detainees file daily,

^aac.

Document #: y Hied: 03/17/20 Page 13 of 14 PagelD #:70

understanding that they might need to forgo the purchase of a particular item of food or bar of soap
in order for a portion of their account to support the filing fee. The Cook County Jail has an
obligation to pay for the basic constitutional care of housing, food, and hygiene for each pretrial
detainee. Any bar of soap or snack item purchased at the commisary is a choice made by the
detainee; as is the choice of filing a lawsuit. Mr. Hughes has chosen to file 15 lawsuits and that
choice, made 15 times, came with the understanding that he would lose his privilege of buying
commissary items because 100% of his account would be going to the filing fees. This Court
warned him repeatedly as the filings continued to come in. He knew of these warnings and he
intended to maintain his ability to choose items from the commissary and file his lawsuits.
Somehow, he believed he is different from all other detainees and can operate his way rather than
the way of the PLRA. He has abused the privilege of proceeding in forma pauperis and wasted
this Court’s time and the time of the officers of the Cook County Jail.
Third, the Court has spent a significant amount of time reviewing Plaintiffs cases, ruling
on motions to dismiss, and attempting to sort through the voluminous accusations that often
overlap pervious lawsuits, all in an effort to protect his rights while also determining whether the
cases may move forward. These cases have sometimes been filed back to back, other times just
weeks apart. In fact, Plaintiffs cases comprise 26% of all of this Court’s prisoner civil rights
cases. Meanwhile, while the Court is reviewing the matters, the Cook County Jail has expended
significant efforts to collect the funds each month as well. This fraud upon the Court comes with
a heavy load of work from the judicial and executive branches of government.
For all these reasons, and to send a firm message about the necessity of being truthful,
ethical, and forthright throughout the litigation process, all the above-captioned cases are
dismissed with prejudice. This matter is also referred to the Executive Committee with a

13

1 •

-4

recommendation that Plaintiff be barred from filing new lawsuits in this Court until he has paid
his outstanding filing fees in full.
Final judgments will enter in each of the above-captioned cases. If Plaintiff wishes to
appeal, he must file a notice of appeal for each case with this Court within thirty days of the entry
ofjudgment. See Fed. R. App. P. 4(a)(1). If he appeals, Plaintiff will be liable for the $505 appellate
filing fee in each case he appeals regardless of the appeal’s outcome. ■See Evans v. III. Dep’t of
Corr., 150 F.3d 810, 812 (7th Cir. 1998). If an appeal is found to be non-meritorious, Plaintiff
could be assessed strikes” under 28 U.S.C. § 1915(g). If a prisoner accumulates three “strikes”
because three federal cases or appeals have been dismissed as frivolous or malicious, or for failure
to state a claim, the prisoner may not file suit in federal court without pre-paying the filing fee
unless he is in imminent danger of serious physical injury. Id. If Plaintiff seeks leave to proceed in
forma pauperis on appeal, he must file a motion for leave to proceed in forma pauperis in this
Court. See Fed. R. App. P. 24(a)(1). Any such motions must specify the issue(s) Plaintiff intends
to present on appeal. See Fed. R. App. P. 24(a)(1)(C).

Date: March 17, 2020

(opt. Virginia M. Kendall
™ted States District Judge

14

